           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    THE VALIDITY OF EARNINGS
  POSTED TO THE SOCIAL SECURITY
    ADMINISTRATION’S MASTER
   EARNINGS FILE FOR CHILDREN
        AGES 7 THROUGH 13

   SEPTEMBER 2007   A-02-06-26051




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 28, 2007                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Validity of Earnings Posted to the Social Security Administration’s Master Earnings
           File for Children Ages 7 through 13 (A-02-06-26051)


           OBJECTIVE

           Our objective was to review controls over the validity of earnings posted to the Social
           Security Administration’s (SSA) Master Earnings File (MEF) for children ages
           7 through 13.

           BACKGROUND
                                                                           1
           When SSA receives wage reports, it checks the Numident file for the reported Social
           Security number (SSN) and date of birth (DoB). If the DoB indicates the wage earner is
           6 years or younger, the earnings will be identified as a Young Children's Earnings
           Record (YCER) item and investigated by SSA. 2 SSA does not have a process to
           specifically validate and investigate earnings posted to the records of children ages
           7 through 13.

           While SSA does not have internal wage verification processes for earnings posted to
           children ages 7 through 13, there are other verification processes that could identify
           potential wage postings for children in this age group. SSA has two electronic
           verification programs that employers use to verify the SSNs of employees. A third
           program is administered by the Department of Homeland Security (DHS) with support
           from SSA. The verification programs include the following. 3


           1
             The Numident includes a record of applicant information (such as name, date and place of birth, and
           parents’ names) provided on the applicant’s Application for a SSN (Form SS-5), in addition to information
           from applications for replacement SSN cards. Each record is housed in the Numident master file.
           2
            Program Operations Manual System, Records Maintenance 03870.065 Earnings Posted to Young
           Children.
           3
            In addition to electronic verification programs that require registration, employers can also verify SSNs
           with SSA by telephone or fax.
Page 2 - The Commissioner


•     Employer Verification Services (EVS): Employers submit requests to verify the
                                                                   4
      names and SSNs of employees by paper or magnetic media. Employers have the
      option of submitting the employee’s DoB and gender for verification, but this
      information is not required to verify the SSN.

•     Social Security Number Verification Service (SSNVS): Registered employers verify
      the names and SSNs of employees against Social Security records on-line or via
      batch files. Employers have the option of submitting the employee’s DoB and
      gender for verification, but this information is not required to verify the SSN.

•     Employment Eligibility Verification System (EEVS): The United States Citizenship
      and Immigration Services, a component of DHS, administers EEVS with support
      from SSA. (EEVS was formerly known as the Basic Pilot.) Employers participating
      in EEVS electronically match the newly hired employee's data (for example, SSN,
      name, date of birth, and the employee's allegation about U.S. citizenship or alien
      status) against SSA and DHS records. Employers using EEVS are required to
      submit the employee’s DoB for verification. Participating employers must use the
      EEVS system to verify employment eligibility within 3 government business days
      from the new employee's date of hire.

Employers register with SSA to use EVS and SSNVS. For EEVS, employers register
with DHS. If the verification process identifies a discrepancy between the employee
data being verified and SSA and/or DHS records, employers are notified of this
discrepancy, who in turn, notify employees that their data do not match SSA records.
The employee is notified that there is a discrepancy, but depending on the specific
                                                                            5
verification program used, may not be told which information did not match. The
employee is then responsible to contact SSA and correct discrepancies.

The Department of Labor (DoL) provides guidance for allowable earnings for children
under age 14. The guidance allows children of any age to work in the entertainment
industry, work for their parents, deliver newspapers, and baby-sit or perform minor
chores in a private home. In addition, the guidance allows for limited work performed
by 12 and 13 year olds. For example, a child age 12 or 13 may be employed in the
agricultural industry outside of school hours with written parental consent. 6


4
  Starting in October 2007, SSA will no longer process magnetic media (that is, tapes, cartridges, compact
disk, or diskettes) for SSN verification using EVS for Registered Users. Employers that prefer to submit
requests electronically will be required to use SSNVS.
5
  If a SSN fails to verify using the EEVS program, the employer will receive one of four possible tentative
nonconfirmation responses: SSN does not match with the name provided, SSN is invalid, SSA is unable to
confirm U. S. citizenship, or SSA is unable to process data. There is not a specific response to employers
stating that the DoB does not match. If the employer provides a DoB for a SSNVS or EVS verification,
they will be advised if the DoB does not match SSA records. However, they are not required to provide
the DoB.
6
    29 C.F.R. §§ 570.2 and 579.3.
Page 3 - The Commissioner


To meet our objective, we obtained a data extract for all children ages 7 through 13 with
earnings posted to the MEF for Tax Year (TY) 2004. This extract identified
157,963 postings totaling approximately $696 million. From this dataset, we isolated
the 121 employers with 50 or more postings. Of the 121 employers, 79 appeared to
legitimately employ children. They consisted of talent agencies, motion picture
producers, and agricultural companies that can legitimately employ children per DoL
guidance. The remaining 42 employers had 4,229 postings for 3,231 children totaling
              7
$32,650,723 of earnings from industries that did not regularly employ children. From
the 4,229 postings, we selected a statistical sample of 250 to determine the validity of
the children’s earnings. We also compared our results to data on YCER earnings items
and employers that sent the most earnings items to the Earnings Suspense File (ESF)
in TY 2004. See Appendix B for additional background, scope, and methodology.

RESULTS OF REVIEW
We found SSA lacked the controls needed to ensure the validity of earnings being
posted to SSN accounts of children age 7 through 13. Specifically, we found
221 (88 percent) of the 250 earnings postings we reviewed were questionable; meaning
the children’s earnings postings were most likely due to reasons other than valid
employment. The remaining 29 earnings postings were valid. However, 12 of these
had corresponding Numident records with an inaccurate DoB, incorrectly showing the
SSN belonged to a child age 7 through 13. 8 We also found that some children with
questionable earnings identified through the YCER process also had questionable
earnings items on their records after they turned 7 years old. Lastly, we found that over
half of the employers we reviewed who reported questionable earnings items for
children 7 through 13 were also on the list of employers who sent the most earnings
items to the ESF in TY 2004.

VALIDITY OF EARNINGS POSTINGS

We found that 221 (88 percent) of the 250 postings reviewed were potentially due to
                          9
questionable use of an SSN rather than valid employment for several reasons,
including

•     wages over $5,000 related to jobs not allowable for children 7 through 13 per DoL
      guidelines,



7
 We reviewed positive and negative earnings postings. Negative postings were adjustments to offset
prior positive postings. The positive postings totaled $29,946,635. The negative postings totaled
$2,704,088. The absolute value of the postings is $32,650,723.
8
    See Appendix C for further details of our earnings postings review.
9
  We provided the results of our analysis of the sample of 250 earnings postings to SSA staff in the Center
for Program Support—a component of the Office of Central Operations. They confirmed our review
results as of January 25, 2007.
Page 4 - The Commissioner


•   earnings posted from multiple employers that did not regularly employ children
    under 14,

•   multiple replacement SSN cards requested, and/or

•   the child’s guardian contested the reported wages by stating the child had never
    worked.

We found that many of the earnings items reviewed were questionable for multiple
reasons. The following examples illustrate the questionable items we identified.

•   One case had TY 2004 earnings of $15,429 for work in the poultry processing
    industry. For the SSN, 11 replacement SSN cards had been issued. The most
    recent replacement card included a change in the child’s first and last names.
    Although SSA records reflected a July 2004 name change, the TY 2004 earnings
    were reported using the original name.

•   A case had TY 2004 earnings of $16,306 for work in the employment services
    industry. Although the TY 2004 earnings from the employer had been deleted, there
    were earnings from the same company posted during TYs 2003 and 2005 that
    remained on the child’s record. Additionally, the child had other TY 2005 wages
    posted, including postings from a lumber company and an automotive distributor.
    We determined that 10 replacement SSN cards had been issued for the child’s
    SSN.

•   A case had TY 2004 earnings of $455 for work in the employment services industry.
    These wages were reported as invalid by the child’s guardian. SSA staff corrected
    the earnings posting in May 2005 and added remarks in SSA’s Earnings
    Modernization System that the father was probably misusing the child’s SSN. This
    claim was supported by the fact that the earnings reported by the employer did not
    match the child’s first name, but did match the father’s first name. However, the
    child continued to have posted earnings in TY 2005.

•   A case had TY 2004 earnings of $22,260 for work in the poultry processing industry.
    While TY 2004 and 2005 earnings remain on the child’s record, wages earned in
    prior years were reported invalid by the child’s guardian. Based on the guardian’s
    report, SSA staff corrected earnings postings for all TYs before 2004. Additionally,
    the child had been issued an original and replacement SSN card indicating the child
    is a male. The Supplemental Security Income and Numident records for
    two subsequent SSN replacement cards indicated the child is a female. We
    inquired to SSA staff about earnings for 2004 and 2005, which were posted after
    earlier questionable postings to the SSN had been detected and deleted. Per SSA
    staff, SSA does not have a policy requiring follow up to check for repeated
    questionable use of a child’s SSN.
Page 5 - The Commissioner


We determined 221 of 250 sampled earnings postings with a value of $2,016,816 were
questionable. Projecting the 221 questionable postings to our total population, we
estimated approximately 3,738 postings with a value of $31,715,129 were
questionable. 10 See Appendix D for our sampling methodology and projections.

ACCURACY OF SSA RECORDS

Of the 250 postings we reviewed, 29 appeared to be valid. While the postings were
valid, the Numident record for the wage earner in 12 cases had the wrong DoB,
incorrectly showing the SSN belonging to a child age 7 through 13. In 11 of these
cases, we attributed the incorrect DoBs to clerical errors made when inputting a request
for a replacement card. Often, the year the input was made for the replacement SSN
card was also entered as the DoB. For the remaining posting, it appeared the child’s
DoB and name were erroneously input into the mother’s Numident record. An SSA
Alphident query showed the child had a separate SSN. A subsequent review of
Numident records showed the DoB had been corrected for 2 of the 12 cases.

VERIFICATION PROGRAM USE

As part of our review, we determined whether the 42 employers associated with the
questionable earnings for children age 7 through 13 were registered users of SSN
verification programs or DHS’s work authorization verification program (EVS, SSNVS or
EEVS). We found 32 of the 42 employers were registered users, with some registered
to use multiple verification programs. Nineteen employers were registered for EEVS,
20 were registered for EVS, and 18 were registered for SSNVS. We found no
registration evidence for the remaining 10 employers. 11 We reviewed the verifications
for the 32 registered employers during TYs 2004 and 2005 and found 13 did not submit
any verification requests during this period.

COMPARISON TO YCER ITEMS

Our October 2006 audit of the Effectiveness of the Young Children’s Earnings Records
Reinstatement Process reviewed YCER earnings items from TY 2002. We compared
our data to the data used for the YCER audit. Our comparison found 342 (40 percent)
of 853 children with TY 2004 earnings postings from the 42 employers we reviewed
also had generated YCER items in TY 2002. The children were born in 1996 and
1997 and were 6 years old or younger during TY 2002 and 7 or older in TY 2004.
Despite having YCER items generated when they were 6 years old or younger in
TY 2002, the 342 children still had questionable earnings that were not reviewed by
SSA in TY 2004. Not only do SSA’s systems not generate an alert or control to prevent
10
   The total dollar value of questionable postings is a summation of the absolute values of the postings,
since we reviewed both positive and negative postings. The projected total value of questionable postings
is an absolute value. See Appendix C for a breakdown of the questionable positive and negative postings
reviewed.
11
  However, these employers could have used SSA’s phone or fax service to verify up to 50 employees at
one time without registering for a verification program.
Page 6 - The Commissioner


or detect earnings postings for children age 7 and older, there is an apparent inability to
ensure earnings for individuals with YCER items are reviewed once the SSN holder is
older than 6 years old.

COMPARISON TO TOP 100 ESF EMPLOYERS

We compared the 42 employers in our sample to the 100 employers who sent the most
                                       12
earnings items to the ESF in TY 2004. We found that 24 (57 percent) of the
42 employers in our review appeared on the list of 100 employers. The 24 employers
were in the following industries: employment services (14), food services (8), retail (1)
and meat and poultry processing industries (1).

CONCLUSION AND RECOMMENDATIONS
We concluded SSA lacked the controls needed to ensure the validity of earnings being
posted to SSN accounts of children age 7 through 13. In our October 2006 audit of the
Effectiveness of the Young Children’s Earnings Records Reinstatement Process, we
recommended that “Consistent with the Agency’s disclosure policies, SSA modify EVS
for Registered Users and SSNVS to detect SSNs for children under age 7 to provide
appropriate notice to employers and potentially reduce the number of future YCER
notices.” The Agency accepted the recommendation as it is related to children under
age 7.

We believe an expansion of the recommendation to older children may also assist
employers identify SSNs for children age 7 through 13 and help to ensure more valid
earning reports for children in this age group.

Accordingly, we recommend SSA:

1. Expand the planned modification of SSA’s verification programs to detect SSNs for
   children under age 14 to provide appropriate notice to employers.

2. Work with employers to review and correct any invalid or inaccurate earnings we
   identified as questionable.

3. Correct the Numident record for the 10 remaining cases we identified as having the
   wrong DoB.

4. Inform the 10 employers not currently registered for a verification program of the
   availability of the programs.




12
 We have reported on such issues in the past. See SSA OIG, Employers with the Most Suspended
Wage Items in the 5-Year Period 1997 through 2001 (A-03-03-13048), October 2004.
Page 7 - The Commissioner


5. Work with DHS and/or DoL, consistent with disclosure laws and regulations, when
   employers submit earnings reports for children age 7 through 13 that suggest SSNs
   are being misused by individuals not legally allowed to work in the United States or
   children under the age of 14 are being employed contrary to DoL guidance.

6. Work with DHS and/or DoL to determine the type of information that would benefit
   them in meeting their missions and assist them if they need legislation to allow the
   sharing of this information.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix E for the full text of SSA’s
comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Summary of Employers with 50 or More Earnings Postings for Children
             Ages 7 through 13 - by Employer Industry
APPENDIX D – Sampling Methodology and Results
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DHS      Department of Homeland Security
DoB      Date of Birth
DoL      Department of Labor
EEVS     Employment Eligibility Verification System
ESF      Earnings Suspense File
EVS      Employer Verification Service
MEF      Master Earnings File
OIG      Office of the Inspector General
SSA      Social Security Administration
SSN      Social Security Number
SSNVS    Social Security Number Verification Service
TY       Tax Year
YCER     Young Children’s Earnings Record
                                                                    Appendix B

Scope and Methodology
To meet our objective, we performed the following steps.

•   Researched the Program Operations Manual System to determine Social Security
    Administration (SSA) policies and procedures for processing wage reports and
    employer verification programs.

•   Researched the Code of Federal Regulations 29 C.F.R. §§ 570.2 and 579.3 for
    Department of Labor guidance on the employment of minors.

•   Obtained and analyzed a data extract from the Master Earnings File of all Tax Year
    (TY) 2004 earnings postings for children born January 1, 1991 through
    December 31, 1997. The data contained 157,963 earnings postings with a net
    value of $696,034,496. We identified 121 Employer Identification Numbers (EIN)
    that appeared in the data extract 50 or more times. We determined that 42 of the
    companies did not regularly employ children. We selected a random sample of
    postings from the 42 EINs for review. We obtained and analyzed data on employer
    participation in verification programs for the 42 employers.

•   Reviewed the October 2006 report on the Effectiveness of the Young Children's
    Earnings Records Reinstatement Process (A-03-05-25009). Specifically, we
    obtained 40,461 TY 2002 Young Children’s Earnings Record (YCER) earnings items
    used in this report. We compared a list of the 42 EINs mentioned above to the EINs
    associated with TY 2002 YCER earnings items. The 42 EINs appeared 1,851 times
    in the list of TY 2002 YCER earnings items. We also compared the Social Security
    numbers (SSN) associated with TY 2002 YCER earnings items to the SSNs that
    occurred in the population of 4,229 postings for the 42 EINs. We determined that
    342 of 853 (40 percent) 7 and 8 year olds who had a TY 2004 earnings posting from
    1 of the 42 employers also had a TY 2002 YCER item.

•   Reviewed the October 2004 report, Employers with the Most Suspended Wage
    Items in the 5-Year Period 1997 through 2001 (A-03-03-13048). Specifically, we
    obtained a list of 100 EINs with the most suspended wage items for TY 2004. We
    compared the list of 100 EINs to the list of 42 EINs with 50 or more postings for
    children age 7 through 13. We determined that 24 EINs appeared on both lists.

We provided the results of our analysis of the sample of 250 earnings postings to SSA
staff in the Center for Program Support—a component of the Office of Central
Operations–who confirmed the results of our review as of January 25, 2007.




                                          B-1
We performed our audit fieldwork in the New York Audit Division from December 2006
through May 2007. We found the data used for this audit were sufficiently reliable to
meet our objective. The entity audited was SSA’s Office of Central Operations, under
the Deputy Commissioner for Operations. Our audit was performed in accordance with
generally accepted government auditing standards.




                                         B-2
                                                                Appendix C

Summary of Employers with 50 or More
Earnings Postings for Children Ages 7 through
13 - by Employer Industry

      Employer         Sample Postings            Dollar Amount of
      Industry              Review                 Invalid Postings
     Type      No.    Valid      Invalid        Positive         Negative

 Employment      19       18           109       $488,413.91    ($156,590.64)
 Services
 Meat/Poultry    9         0               68   $1,017,430.06    ($60,141.53)
 Processing
 Food Service    8         3               31    $187,401.26           $0.00

 Retail Stores   4         7                7     $68,930.51         ($60.79)

 Healthcare      1         1                4     $36,866.61           $0.00
 and Social
 Assistance
 Painting        1         0                2          $0.00        ($981.00)
 Contractor
 Totals          42       29           221      $1,799,042.35   ($217,773.96)
                                                                                  Appendix D

Sampling Methodology and Results
We obtained and analyzed a data extract of the Master Earnings File of all Tax
Year 2004 earnings postings for children born January 1, 1991 through
December 31, 1997. The data contained 157,963 earnings postings with a net value of
$696,034,496. We identified Employer Identification Numbers (EIN) that appeared in
the data extract 50 or more times. We found 121 EINs met this criterion. We used
employer names, yellow pages, company web sites, and other web sites to identify the
type of business the company engaged in. We determined that 42 of the companies
were in industries that did not regularly employ children according to Department of
Labor guidelines.

The 42 EINs had a total of 4,229 earnings postings for children age 7 through 13. The
population of 4,229 postings consisted of:

•   3,767 positive postings totaling $29,946,635;
•   372 negative postings totaling $2,704,088; and
•   90 postings for $0.00.

Negative postings are adjustments to offset prior positive postings. These adjustments
are sometimes accompanied by a $0.00 posting, reflecting the true total wages from the
employer.

From the 4,229 postings, we selected a sample for review of 250 postings with a total
absolute value of $2,076,312. 1 We obtained Social Security Administration Master
Beneficiary Record, Supplemental Security Income Record, Numident, Summary
Earnings, Detail Earnings and Earnings Modernization queries for each of the Social
Security numbers in the sample. We reviewed the queries to determine whether the
Social Security Administration had an incorrect date of birth recorded in the Numident,
Social Security number misuse had ever been reported, and/or the earnings appeared
to belong to someone other than the person the SSN was originally issued to. We
projected the absolute dollar value of questionable postings using a statistical ratio
estimation approach. The results of our review are shown in the following chart.




1
 We reviewed both positive and negative postings; the total value reviewed is a summation of the
absolute values of each of the postings.


                                                  D-1
                               Projections for the 42 EINs
Sample Population- Number of postings                                        4,229
Sample Population- Total absolute value                                $32,650,723
of postings for children age 7 through 13
for the 42 EINs
Sample size                                                                   250

              Sample Results and Projections - Questionable Postings
                                 Attribute Projection
Sample cases- Questionable postings                                            221
Projection- Questionable postings                                            3,738
Projection lower limit                                                       3,579
Projection upper limit                                                       3,870

                                 Variable Projection
Absolute value of questionable postings                                 $2,016,816
Projection- Absolute value of questionable                             $31,715,129
postings
Projection lower limit                                                 $31,157,973
Projection upper limit                                                 $32,272,285

Note: Projections made at the 90-percent confidence level.




                                                  D-2
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

           September 21, 2007
Date:                                                                             Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "The Validity of Earnings Posted to the
           Social Security Administration’s Master Earnings File for Children Age 7 through 13”
           (A-02-06-26051)--INFORMATION


           This is in response to your September 6, 2007 memorandum requesting that we reconsider
           recommendation 6 of the subject report. Based on the revisions you have made to this
           recommendation, we can now agree. The attached response reiterates our previous agreement
           with recommendations 1 through 5 and revises 6 to agree.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE VALIDITY OF EARNINGS POSTED TO THE SOCIAL SECURITY
ADMINISTRATION’S MASTER EARNINGS FILE FOR CHILDREN AGE 7
THROUGH 13” (A-02-06-26051)

Thank you for the opportunity to review and provide comments on this draft report. We are
constantly evaluating ways to ensure the accuracy of earnings records, as one of our stewardship
goals is to ensure the accuracy of earnings records so that eligible individuals can receive the
proper credit for their earnings when it comes time to file for benefits.

Our comments on the draft recommendations are as follows.

Recommendation 1

Expand the planned modification of SSA’s verification programs to detect Social Security
numbers (SSN) for children under age 14 to provide appropriate notice to employers.

Comment

We agree. We will analyze, once resources are available, the feasibility of modifying our
employer verification process to detect SSNs for children under the age of 14. Our current
disclosure policy would allow for the date of birth information to be shared with employers. This
is because the routine use established for the applicable Privacy Act system of records, the SSN
Master file (i.e., the Numident records), allows information from that system to be disclosed to
employers consistent with their wage reporting responsibilities.

Recommendation 2

Work with employers to review and correct any invalid or inaccurate earnings that were
identified as questionable.

Comment

We agree. We have initiated plans to review the entire earnings process to address the current
deficiencies and weaknesses. We share OIG’s concern, however, an enhancement plan will
involve the efforts of several different components and the investment of considerable time and
resources. An implementation date will be determined once we have identified the steps
necessary.




                                               E-2
Recommendation 3

Correct the numident record for the 10 remaining cases identified as having the wrong date of
birth.

Comment

We agree. We will handle the necessary corrections upon receipt of information regarding the 10
specific cases OIG is referencing. We expect to perform the necessary correction to the
Numident records within 2 weeks of receipt.

Recommendation 4

Inform the 10 employers not currently registered for a verification program of the availability of
the programs.

Comment

We agree. We have contacted the 10 specific employers and encouraged their participation in
one of our employer verification programs. Five of the employers are currently using the Social
Security Number Verification Service, while the remaining five are planning to register and use
the service in the future.

Recommendation 5

Work with the Department of Homeland Security (DHS) and/or the Department of Labor (DOL),
consistent with disclosure laws and regulations, when employers submit earnings reports for
children age 7 through 13 that suggest SSNs are being misused by individuals not legally allowed
to work in the United States or children under the age of 14 are being employed contrary to DOL
guidance.

Comment

We agree in theory. However, we currently have no way to electronically identify employers
who do not normally employ workers under age 14, and we cannot electronically identify
children working contrary to DOL guidance since our only source of information on specific
individuals are tax return documents. There does not appear to be any additional data that could
be shared consistent with disclosure laws and regulations. Assuming the Master Earnings File is
the potential source of the data to be disclosed, the current provisions of the Internal Revenue
Code (IRC) prohibit SSA from making those disclosures to DHS and DOL. This is because SSA
cannot disclose additional data from the earnings record unless there is an expressed
authorization within section 6103 of the IRC (26 U.S.C. § 6103) to do so.




                                                E-3
Recommendation 6

Work with DHS and/or DOL to determine the type of information that would benefit them in
meeting their missions and assist them if they need legislation to allow the sharing of this
information.

Comment

We agree. We will work with DHS and/or DOL to determine what, if any, information they
would need; however, because the issues identified for purposes of this recommendation are
under the jurisdiction of those respective agencies, we would defer to those agencies to seek the
necessary legislation to obtain such information.




                                               E-4
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division, (212) 264-5295

   Victoria Abril, Audit Manager, (212) 264-0504


Acknowledgments

In addition to those named above:

   Christine Hauss, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-06-26051.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
